HHS/OIG-Audit--"Review of Costs Claimed for Federal Financial Participation Under the Title IV-A Emergency Assistance Program by the Pennsylvania Department of Public Welfare for Children in Philadelphia County from 10/1/94 to 9/30/96, (A-03-98-00592)&quoú
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed for Federal Financial Participation Under the Title IV-A Emergency Assistance Program by
the Pennsylvania Department of Public Welfare for Children in Philadelphia County from October 1, 1994 to September 30,
1996," (A-03-98-00592)
April 21, 2000
Complete
Text of Report is available in PDF format (6.13 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In this final report the OIG estimates that widespread violations of Federal criteria by the Pennsylvania Department of
Public Welfare (DPW) and the Philadelphia Department of Human Services and Family Court resulted in Pennsylvania being
reimbursed at least $77.6 million in Federal funds for unallowable claims for emergency assistance services and associated
administrative costs under the Title IV-A emergency assistance program. Of the 330 claims reviewed, 301 violated Federal
requirements and 166 of the 301 contained 2 or more violations of Federal requirements. We recommended financial adjustments
for $77.6 million. We also recommended that the Pennsylvania DPW review claims by Philadelphia County and refund inappropriately
claimed Federal funds for periods subsequent to our audit period and make similar reviews in other Pennsylvania counties.
The DPW did not concur with our recommendations.